®nttet» H>tate£S Court of Appeals
for tfje Jftftf) Circuit
No. 20-10304

United States of America
Plaintiff—Appellee,
versus
Verlan Perez, Jr., also known as June Bug,
Defendant-Appellant.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CV-1688
USDC No. 3:17-CR-498-2

ORDER:
Verlan Perez, Jr., federal prisoner # 56328-177, moves for a certificate
of appealability (COA) to appeal the denial of his 28 U.S.C. § 2255 motion
seeking relief from his guilty plea conviction for possession with intent to
distribute methamphetamine. He seeks a COA on his claim that counsel was
ineffective for failing to file a notice of appeal or to consult with Perez about
doing so.
To obtain a COA, a § 2255 movant must make “a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see Slack
v. McDaniel, 529 U.S. 473, 483 (2000). “A [movant] satisfies this standard

No. 20-10304

by demonstrating that jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed further.”
Miller-El v. Cockrell, 537 U.S. 322,327 (2003).
Perez has not met the required standard. His motion for a COA is
therefore DENIED.
James C. Ho
United States Circuit Judge

2

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

March 11, 2021
#56328-177
Mr. Verlan Perez Jr.
TTP T

'Pp vp T' V P} TO ^

4001 Leopard Drive, P.O. Box 7000
Texarkana, TX 75505-0000
No. 20-10304

USA v. Perez
USDC No. 3:19-CV-1688

Dear Mr. Perez,
We are responding to your letter of March 8, 2021 regarding the
previous Court's notice regarding the judgement.
A copy of the judgement was enclosed with the letter to the
district court clerk, All others were copied as to the letter,
only.
As a matter of clarity the judgment was the Court's order dated
December 28, 2020 denying certificate of appealability.

Sincerely,
LYLE W. CAYCE, Clerk
By:
Claudia N.Farrington,Deputy Clerk
504-310-7706

APPENDIX

-

B

Case 3:19-cv-01688-L-BT Document 23 Filed 02/27/20

Page 1 of 3 PagelD 163

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
VERLAN PEREZ, JR.,
Movant,

§
§
§
§

§ Civil Action No. 3:19-cv-1688-L
§ (Criminal Action No. 3:17-cr-0498-L)

v.
UNITED STATES OF AMERICA,
Respondent.

§
§
§
§

ORDER
On November 15, 2019, United States Magistrate Judge Rebecca Rutherford entered the
Findings, Conclusions, and Recommendation of the United States Magistrate Judge (“Report”)
(Doc. 21), recommending that the court deny Movant Verlan Perez, Jr.’s (“Mr. Perez”) Motion
Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody
(“Motion”) (Doc. 2). On November 26, 2019, Mr. Perez filed his Objections* (Doc. 22).
In his Motion, Mr. Perez seeks to file an out-of-time direct appeal in his underlying criminal
case due to the alleged ineffective assistance of his former counsel Cody Skipper (“Mr. Skipper”).
Specifically, Mr. Perez contends that Mr. Skipper provided ineffective assistance because (1) he
told Mr. Skipper to file an appeal, and he failed to do so, and (2) Mr. Skipper failed to consult with
him about his right to appeal. On October 22, 2019, Magistrate Judge Rutherford held an
evidentiary hearing regarding Mr. Perez’s allegations. During the hearing, she heard testimony
from Mr. Perez, his mother, his former girlfriend, and Mr. Skipper. Upon consideration of the
testimony and evidence presented, Magistrate Judge Rutherford determined that Mr. Skipper was

* Mr. Perez filed his § 2255 Motion pro se. On September 17, 2019, Magistrate Judge Rutherford appointed Paul
Lund to serve as court-appointed counsel and, accordingly, he filed the Objections on Mr. Perez’s behalf.

Order - Page 1

Case 3:19-cv-01688-L-BT Document 23 Filed 02/27/20

Page 2 of 3 PagelD 164

more credible than Mr. Perez and, accordingly, determined that he did not: (1) fail to file a direct
appeal against Mr. Perez’s express instructions, or (2) fail to consult with Mr. Perez regarding an
appeal. She further noted that “even if [Mr.] Skipper had failed to consult with [Mr.] Perez
regarding his appeal rights, there was no reason to think that a rational defendant would want to
appeal, and [Mr.] Perez did not reasonably demonstrate that he was interested in appealing.”
Report 7-8.
Mr. Perez objects to the Report, asserting that; despite the Magistrate Judge’s findings, he
(1) instructed his counsel to appeal his sentence; (2) demonstrated that he was interested in
appealing; and (3) established that Mr. Skipper failed to consult with him regarding his right to
appeal. Mr. Perez further contends that even if the court determines that he did not provide a clear
directive to file an appeal, Mr. Skipper breached his duty to consult about an appeal. Mr. Perez
does not provide any specific explanation as to how Mr. Skipper may have breached that duty.
Instead, he contends that Mr. Skipper’s memory is not entirely reliable, which is evidenced by his
inability to remember what Mr. Perez considers important aspects of his representation. See
Movant’s Obj. 6. In contrast, Mr. Perez contends that his memory of the events and conversations
was “quite clear,” which should be credited by the court. Id.
After careful consideration of the pleadings, file, record, Report, and applicable law, and
having conducted a de novo review of the portions of the Report to which objections were made,
the court determines that the findings and conclusions of the magistrate judge are correct and
accepts them as those of the court. Specifically, the court determines that the Magistrate Judge
had the firsthand and best opportunity to assess the credibility of the witnesses during the
evidentiary hearing, and, despite Mr. Perez’s assertions, the court has no basis upon which to
disturb her credibility assessment. Moreover, Mr. Perez makes no allegation that the Magistrate

Order - Page 2

Case 3:19-cv-01688-L-BT Document 23 Filed 02/27/20

Page 3 of 3 PagelD 165

Judge erred in her legal analysis of the issues but, instead, attempts to relitigate the facts and issues
that have already been considered by the court. Accordingly, the court overrules Mr. Perez’s
Objections (Doc. 22), denies his Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct
Sentence by a Person in Federal Custody (Doc. 2), and dismisses with prejudice this action.
Considering the record in this case and pursuant to Federal Rule of Appellate Procedure
22(b), Rule 11(a) of the Rules Governing §§ 2254 and 2255 proceedings, and 28 U.S.C. § 2253(c),
the court denies a certificate of appealability.* The court determines that Movant has failed to
show: (1) that reasonable jurists would find this court’s “assessment of the constitutional claims
debatable or wrong;” or (2) that reasonable jurists would find “it debatable whether the petition
states a valid claim of the denial of a constitutional right” and “debatable whether [this court] was
correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). In support of this
determination, the court accepts and incorporates by reference the magistrate judge’s report filed
in this case. In the event that Petitioner files a notice of appeal, he must pay the $505 aoDellate
filing fee or submit a motion to proceed in forma pauperis (“IFP”), unless he has been granted IFP
status by the district court.
It is so ordered this 27th day of February, 2020.
Sam A. Lindsay
United States District Judge
*RuIe 11 of the Rules Governing §§ 2254 and 2255 Cases provides as follows:
(a)
Certificate of Appealability. The district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant. Before entering the final order,
the court may direct the parties to submit arguments on whether a certificate should issue. If the
court issues a certificate, the court must state the specific issue or issues that satisfy the showing
required by 28 U.S.C. § 2253(c)(2). If the court denies a certificate, the parties may not appeal the
denial but may seek a certificate from the court of appeals under Federal Rule of Appellate
Procedure 22. A motion to reconsider a denial does not extend the time to appeal.
(b) Time to Appeal. Federal Rule of Appellate Procedure 4(a) governs the time to appeal an order
entered under these rules. A timely notice of appeal must be filed even if the district court issues a
certificate of appealability.

Order —Page 3

Case 3:19-cv-01688-L-BT Document 24 Filed 02/27/20

Page 1 of 1 PagelD 166

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
VERLAN PEREZ, JR.,

§
§
§
§

Movant,

§ Civil Action No. 3:19-cv-1688-L
§ (Criminal Action No. 3:17-cr-0498-L)

v.

§
§
§
§

UNITED STATES OF AMERICA,
Respondent.

JUDGMENT
This judgment is issued pursuant to the court’s order, dated February 27, 2020. It is,
therefore, ordered, adjudged, and decreed that Movant Verlan Perez, Jr.’s (“Movant”) Motion
Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody
(Doc. 2) is denied, and, accordingly, this action is dismissed with prejudice. The clerk of court
shall transmit a true copy of this judgment and a copy of the order dated February 27, 2020,
accepting the Findings, Conclusions, and Recommendation of the United States Magistrate Judge,
to Movant.
Signed this 27th day of February, 2020.

Sam A. Lindsay
United States District Judge

Judgment - Solo Page

ORDER
SUPREME COURT OF THE UNITED STATES
2020 U.S. LEXIS 2196
[NO NUMBER IN ORIGINAL]
April 15, 2020, Decided
Editorial Information: Prior History
Order, 2020 U.S. LEXIS 1643 (U.S., Mar. 19, 2020)
Judges: {2020 U.S. LEXIS 1}Roberts, Thomas, Ginsburg, Breyer, Alito, Sotomayor, Kagan, Gorsuch
Kavanaugh.

Opinion

in light of the ongoing public health concerns relating to COVID-19:
IT IS ORDERED that with respect to every document filed in a case prior to a ruling on a petition for
a writ of certiorari or petition for an extraordinary writ, or a decision to set an appeal for argument, a ,
single paper copy of the document, formatted on 8 1/2 x 11 inch paper, may be filed. The document
may be formatted under the standards set forth in Rule 33.2, or under the standards set forth in Rule
33.1 but printed on 8 1/2 x 11 inch paper. The Court may later request that a document initially
submitted on 8 1/2 x 11 inch paper be submitted in booklet format..
IT IS FURTHER ORDERED that the following types of documents should not be filed in paper form if
they are submitted through the Court's electronic filing system: (1) motions for an extension of time
under Rule 30.4; (2) waivers of the right to respond to a petition under Rule 15.5; (3) blanket
consents to the filing of amicus briefs under Rules 37.2(a) and 37.3(a); and (4) motions to delay
distribution of a cert petition under the Court's Order of March 19, 2020. Notwithstanding Rule 34.6
and paragraph 9 of the Guidelines for the Submission of Documents to the Supreme Court's
Electronic Filing System, these{2020 U.S. LEXIS 2} enumerated filings should be filed electronically
in cases governed by Rule 34.6, although other types of documents in those cases should still be
filed in paper form only.
IT IS FURTHER ORDERED notwithstanding Rule 29.3, parties may be relieved of the obligation to
effect service of paper versions of filings upon other parties if they agree to electronic service;
parties are strongly encouraged to use electronic service if feasible.
These modifications will remain in effect until further order of the Court.

SCTHOT

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product js sul
restrictions and terms and conditions of the Matthew Bender Master Agreement.

